No. 20A19

IN THE

Supreme Court of the United States
DON BARNES, SHERIFF,
ORANGE COUNTY, CALIFORNIA, et al.,
Applicants.
v.
MELISSA AHLMAN, et al.,
Respondents.

RESPONSE IN OPPOSITION TO
EMERGENCY APPLICATION FOR STAY

Cassandra Stubbs
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
201 W. Main St., Suite 402
Durham, NC 27701
(919) 682-5659
David Cole
Somil Trivedi
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th St., NW
Washington, DC 20012
(202) 549-2611
Paul Hoffman
UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL
OF LAW CIVIL RIGHTS LITIGATION CLINIC
401 E. Peltason Dr.,
Suite 1000, Irvine, CA 92687
(949) 824-0066

David M. Zionts
Counsel of Record
Stacey K. Grigsby
Amia Trigg
Steven Winkelman
Eric Chung
Laura E. Dolbow
COVINGTON & BURLING LLP
One CityCenter
850 Tenth St., NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com
Mitchell Kamin
Aaron Lewis
COVINGTON & BURLING LLP
1999 Avenue of the Stars
Los Angeles, CA 90067-4643
(424) 332-4800

(Additional Counsel Listed on Inside Cover)

Zoe Brennan-Krohn
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
Disability Rights Program
39 Drumm St.
San Francisco, CA 94111
(415) 343-0769
Carl Takei
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad St., 18th Floor
New York, NY 10004

Peter Eliasberg
AMERICAN CIVIL LIBERTIES FUND OF
SOUTHERN CALIFORNIA
1313 W 8th St.
Los Angeles, CA 90017
(213) 977-9500
John Washington
SCHONBRUN, SEPLOW, HARRIS,
HOFFMAN & ZELDES LLP
11543 W. Olympic Blvd.
Los Angeles, CA 90064
(310) 399-7040

Counsel for Respondents
July 30, 2020

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................................................................... ii
INTRODUCTION .......................................................................................................... 1
STATEMENT................................................................................................................ 5
ARGUMENT ................................................................................................................ 12
I. The Court Is Unlikely to Grant Certiorari. .................................................. 13
A. There is no split in the Circuits. ....................................................... 15
B. This case would be an inappropriate vehicle to address any asserted
split in the Circuits. ............................................................................... 20
II. The Court Is Unlikely to Reverse the Lower Court’s Decisions. ................ 23
A. The district court correctly stated and appropriately applied the
objective deliberate indifference standard. ........................................... 23
B. The district court correctly stated and appropriately applied the
subjective deliberate indifference standard. ......................................... 26
C. The district court correctly found that the Jail officials were aware
that COVID-19 presented a substantial risk of serious harm to the
Detainee Class. ....................................................................................... 28
D. The district court did not abuse its discretion in setting the scope of
its preliminary injunction. ..................................................................... 33
III. Applicants Have Not Demonstrated that Denial of a Stay Will Cause
Irreparable Harm, Yet Granting a Stay Would Significantly Harm the
Detainee Class................................................................................................... 35
IV. The Balance of Hardships and Public Interest Favor Denial of a Stay. ... 41
CONCLUSION............................................................................................................. 42

i

TABLE OF AUTHORITIES
Page(s)
Cases
Anderson v. Bessemer City,
470 U.S. 564 (1985) ........................................................................................ 28, 29, 33
Fargo Women’s Health Org. v. Schafer,
507 U.S. 1013 (1993) .................................................................................................. 13
Farmer v. Brennan,
511 U.S. 825 (1994) .................................................................................. 14, 23, 26, 27
Gordon v. Cty. of Orange,
888 F.3d 1118 (9th Cir. 2018) .............................................................................. 23, 24
Graves v. Barnes,
405 U.S. 1201 (1972) .................................................................................................. 13
Heckler v. Redbud Hosp. Dist.,
473 U.S. 1308 (1985) .................................................................................................. 13
Leiva-Perez v. Holder,
640 F.3d 962 (9th Cir. 2011) ...................................................................................... 38
Lemire v. Cal. Dep’t of Corr. & Rehab.,
726 F.3d 1062 (9th Cir. 2013) .................................................................................... 26
Moore v. Illinois,
423 U.S. 938 (1975) .................................................................................................... 15
Overton v. Ohio,
534 U.S. 982 (2001) .................................................................................................... 15
Packwood v. Senate Select Comm. on Ethics,
510 U.S. 1319 (1994) .............................................................................................. 2, 13
Rostker v. Goldberg,
448 U.S. 1306 (1980) .................................................................................................. 13
Ruckelshaus v. Monsanto Co.,
463 U.S. 1315 (1983) .................................................................................... 2, 3, 12, 38
Shorter v. Baca,
895 F.3d 1176 (9th Cir. 2018) .................................................................................... 23

ii

Swain v. Junior,
958 F.3d 1081 (11th Cir. 2020) .......................................................................... passim
Swain v. Junior,
961 F.3d 1276 (11th Cir. 2020) .................................................................................. 16
Swain v. Junior,
No. 1:20-CV-21457-KMW, 2020 WL 2078580 (S.D. Fla. Apr. 29, 2020) .................. 19
Taylor v. Yee,
136 S. Ct. 929 (2016) .................................................................................................. 22
Trump v. Int’l Refugee Assistance Project,
137 S. Ct. 2080 (2017) ................................................................................................ 35
Valentine v. Collier,
956 F.3d 797 (5th Cir. 2020) .............................................................................. passim
Valentine v. Collier,
No. 4:20-cv-1115, 2020 WL 1916883 (S.D. Tex. Apr. 20, 2020) ................................ 19
Wilson v. Williams,
961 F.3d 829 (6th Cir. 2020) .................................................................... 15, 16, 18, 19
Wilson v. Williams,
No. 4:20-CV-00794, 2020 WL 1940882 (N.D. Ohio Apr. 22, 2020) ........................... 16
Statutes and Rules
Fed. R. Civ. Proc. 52 ........................................................................................................ 28
Other Authorities
CENTERS FOR DISEASE CONTROL AND PREVENTION, Interim
Guidance on Management of Coronavirus Disease 2019 (COVID-19) in
Correctional and Detention Facilities,
https://www.cdc.gov/coronavirus/2019-ncov/community/correctiondetention/guidance-correctional-detention.html....................................................... 34
JUDICIAL BRANCH OF CALIFORNIA, Judicial Council Adopts New
Rules to Lower Jail Population, Suspend Evictions and Foreclosures
(Apr. 6, 2020), https://newsroom.courts.ca.gov/news/judicial-counciladopts-new-rules-to-lower-jail-population-suspend-evictions-andforeclosures ................................................................................................................. 24

iii

ORANGE COUNTY SHERIFF’S DEPARTMEMNT, COVID-19 in OC
Jails, https://www.ocsd.org/documents/sheriff/COVIDStats7.24.20.pdf ................. 38

iv

INTRODUCTION
There is a COVID-19 crisis in the Orange County Jail (“the Jail”). Prior to
the district court’s injunction, Applicants were shuffling inmates around the Jail
in defiance of Centers for Disease Control and Prevention (“CDC”) Guidelines and
leaving detainees packed into dayrooms sharing the same air and bathrooms
without social distancing; symptomatic individuals were not being separated from
asymptomatic ones, and at least one COVID-positive detainee was housed with
individuals who had not tested positive; Applicants provided watered-down
disinfectant and make-shift masks made from blood-stained sheets; and
symptomatic detainees were being denied tests.

As the district court found,

“compliance [with the CDC Guidelines] has been piecemeal and inadequate.” ECF
No. 65 at 14.1 Perhaps unsurprisingly, 369 detainees had tested positive as of the
time the preliminary injunction was issued, reflecting “an increase of more than
300 confirmed cases in a little over a month.” 9th Cir. Appeal No. 20-55568, Dkt.
No. 19-1 at 4. In granting the preliminary injunction, the district court denied a
request to order the release of detainees and limited its relief to measures that
Applicants’ declarant had testified the Jail had “already implemented.” Balicki
Decl., ECF No. 44-10 ¶ 2.
The facility’s testing failures mean that any figures on COVID-19 infections
are understated. Reported cases decreased for a time after entry of the injunction,

All references to ECF are citations to the district court docket (Case No. 8:20-cv00835-JGB-SHK). All references to 9th Cir. Dkt. are citations to the Ninth Circuit
dockets (Appeal No. 20-55568 and Appeal No. 20-55668).
1

1

but the crisis has far from abated. From June 24 to July 24, the number of positive
cases reported as “Medical Isolation (Symptomatic)” in the Jail increased by
1400%. See infra Part III at 38–41. Three days after filing their Application to
Justice Kagan, Applicants informed the district court of 40 new confirmed positive
tests, including 15 cases of likely transmission from a current detainee housed in
the general population while actively infected with COVID-19. Defs.’ 7/24/20
Compliance Report, ECF No. 111 at 2. Yet against this backdrop, and after multiple
requests for a stay in the district court and court of appeals have been denied,
Applicants ask for the extraordinary relief of a stay from this Court.
Their Application is a case study in why this Court gives “considerable
deference” to a district court’s decision to deny a stay, Ruckelshaus v. Monsanto
Co., 463 U.S. 1315, 1316 (1983) (Blackmun, J., in chambers), and why there is an
“especially heavy burden” when, as here, the “matter is pending before the Court
of Appeals” and “the Court of Appeals denied” a stay, Packwood v. Senate Select
Comm. on Ethics, 510 U.S. 1319, 1320 (1994) (Rehnquist, J., in chambers). The
very premise of the Application—that Applicants have “reduced intra-jail
transmission to zero,” Application at ii (Question Presented)—is false and
contradicted by Applicants’ own disclosures last week. The core legal issue they
purport to present—whether the injunction should have “exceed[ed] the scope of
CDC Guidelines,” id.—is a curious basis for review of a decision that was based on
a finding that Applicants “are not complying meaningfully with the CDC
Guidelines,” and an injunction that tracks those Guidelines. ECF No. 65 at 16
(emphasis added).

And Applicants do not even question the district court’s
2

conclusion that plaintiffs are likely to succeed under the Americans with Disability
Act and the Rehabilitation Act, a determination that independently supports the
preliminary injunction granted here and makes this case an inappropriate vehicle
to consider the constitutional issues on which Applicants seek review.
Neither do Applicants mention, much less refute, the court of appeals’ reason
for finding no irreparable harm from the injunction: that Applicants have
“represented not only that [they] were willing and able to implement each of the
specific measures requested by Plaintiffs (and later incorporated into the
injunction), but that they had in fact already implemented them.” 9th Cir. Appeal
No. 20-55568, Dkt. No. 19-1 at 6. To be sure, Plaintiffs do not agree that Applicants
have sufficiently implemented these measures. But Applicants are either “already
willingly complying with the requirements of the injunction” and so “will suffer no
irreparable injury from it,” or else “they misrepresented the nature of their
response to COVID-19 in the district court, in which case they are not entitled to
discretionary relief.” Id. at 7. Applicants’ representations were thus a “sufficient
reason” for the court of appeals to deny a stay. Id. at 8. In this Court as well,
Applicants’ “fail[ure] to show irreparable injury from the denial of the stay” means
that likelihood of success on the merits “need not be considered.” Ruckelshaus, 463
U.S. at 1317 (Blackmun, J., in chambers). And while Applicants fail to demonstrate
any irreparable harm from the injunction, the risk of serious illness and even death in
the absence of an injunction is indisputably irreparable.
Applicants also neglect to mention, much less satisfy, the threshold
requirement for a stay from this Court: establishing that a grant of certiorari is
3

probable. They have failed to demonstrate any basis for a grant of certiorari to
review what is, after all, merely a preliminary injunction in a prison-conditions
case applying well-settled law to the particular facts presented by a single facility.
District courts enter such injunctions frequently across the country, and this Court
rarely intervenes. Applicants have shown no basis to depart from that practice
here. They fail to identify any split in the Circuits on any legal question. Their
real quarrel is with the district court’s application of settled legal standards to the
facts of this case, and even its credibility determinations. And as noted, Applicants
do not even challenge the district court’s determinations on the statutory grounds
that independently support the injunction. A grant of certiorari is exceedingly
unlikely, yet another reason to deny the stay.
Applicants’ lack of urgency in the proceedings below only underscores that the
extraordinary relief of a stay should not be granted.

While pursuing this relief,

Applicants are asking the court of appeals for a second extension of time for their
opening brief, pointing to the ongoing discovery in the district court. See 9th Cir.
Appeal No. 20-55568, Dkt. No. 31 at 5. At bottom, Applicants’ stay request seeks to
shortcut discovery before the district court and normal appellate review by the Ninth
Circuit.
Should circumstances improve at the Jail, the courthouse doors remain open
to Applicants.

The district court has not ruled out granting relief from the

injunction in appropriate circumstances, finding only that Applicants’ rapid
request to dissolve the injunction was “premature.” ECF No. 93 at 2. Instead of
presenting a rosy spin on the facts to this Court, Applicants are free to present
4

actual evidence in the district court. But the extraordinary relief they seek from
this Court would quite literally endanger the health and wellbeing of everyone who
cycles in and out of the Orange County Jail. The Application should be denied.
STATEMENT
1. As the Court is well aware, the COVID-19 pandemic is the most serious public
health crisis in generations. It is especially dangerous in jails, whose population
includes pretrial detainees and where inmate turnover is more frequent than in
prisons. On April 30, 2020, Plaintiffs (“the Detainee Class”) filed a complaint on behalf
of two classes of individuals alleging that the confinement conditions in the Jail
violated the Eighth Amendment, the Fourteenth Amendment,2 the Americans with
Disabilities Act (“ADA”), and the Rehabilitation Act. ECF No. 1. The Detainee Class
sought judicial relief to release the most medically-vulnerable people in the Jail and to
adopt measures to mitigate the risk of COVID-19 transmission in the Jail.
The Detainee Class presented evidence that Applicants failed to take reasonable
prevention measures recommended by the CDC and other public health experts.
Applicants had failed to implement appropriate social distancing measures,
disregarding the CDC’s recommendations. Dayrooms were crowded. See Bonilla Decl.,
ECF No. 41-20 at ¶ 7.

Detainees stood shoulder-to-shoulder to use the Jail’s

telephones, and detainees were required to clean the bedding of detainees who tested
positive for COVID-19. See Maldonado Decl., ECF No. 79-15 at ¶ 15; Ahlman 5/15/20
Decl., ECF No. 79-33 at ¶ 3. Applicants also failed to implement quarantine and

Plaintiffs’ Eighth Amendment claims apply to incarcerated individuals serving a
sentence, while the Fourteenth Amendment claims apply to pretrial detainees.
2

5

isolation protocols in accordance with CDC Guidelines. See Wagner Decl., ECF No. 791 at ¶ 5. Instead, symptomatic individuals were not medically isolated. In one case,
after a detainee tested positive for COVID-19, he was housed with those who had not
tested positive, sharing “the same showers, phones, and pass[ing] the same newspaper
around cell to cell.” Miranda Decl., ECF No. 41-14 at ¶ 25. Others that were infected
and/or symptomatic were allowed to “comingle . . . in the common day room, playing
chess and cards,” with no regard for their ability to infect others. See Ramirez Decl.,
ECF No. 41-10 at ¶¶ 20, 22, 24.
Applicants further failed to provide adequate cleaning supplies, personal
hygiene supplies, and personal protective equipment to curtail the spread of the virus.
Applicants provided “watered down” disinfectant and “dirty rags” to detainees to clean
common spaces. See Farias Decl., ECF No. 41-17 at ¶ 13; Ramirez Decl., ECF No. 4110 at ¶ 14; Bonilla Decl., ECF No. 41-20 at ¶ 16. Frequently-touched surfaces such as
telephones and table tops were not cleaned between uses. See Baguiao Decl. ECF No.
41-26 at ¶ 14; Farias Decl., ECF No. 41-17 at ¶ 14. While makeshift “masks” were
ostensibly provided, they were fashioned from t-shirts, towels, or “soiled sheets, with
stains of feces and blood.” Bonilla Decl., ECF No. 41-10 at ¶¶ 10, 11, 14–17.
Applicants also failed to implement an adequate testing regimen at the Jail.
Multiple detainees testified to experiencing COVID-19 symptoms, requesting tests,
and being denied or ignored. See Ramirez Decl., ECF No. 41-10 at ¶ 21; Farias Decl.,
ECF No. 41-17 at ¶ 9.
2. Based on these facts, the Detainee Class filed an application for a temporary
restraining order and a motion for a preliminary injunction to implement protections
6

against COVID-19 transmission. ECF No. 41. Applicants argued that no preliminary
relief was necessary because they had “already . . . implemented” all of the measures
that the Detainee Class sought in the complaint, except for releasing certain detainees.
ECF No. 44-1 at 9.
On May 26, 2020, the district court entered a preliminary injunction after oral
argument and weighing the evidence submitted by the parties. ECF No. 65. The
district court found that the “risk of harm within the Jail is undeniably high,” that
Applicants were not “complying meaningfully with the CDC Guidelines,” and the
Detainee Class demonstrated a likelihood of success on their claims. Id. at 14, 16, 18.
The district court concluded that “an institution that is aware of the CDC Guidelines
and able to implement them but fails to do so demonstrates that it is unwilling to do
what it can to abate the risk of the spread of infection.” Id. at 17. At the same time,
the district court explained that “the CDC Guidance ‘is not a statute, nor is it a
mandate,’” and “do[es] not contemplate hundreds of infections within the population.”
Id. at 16–17. “Accordingly,” the district court reasoned, “the CDC Guidelines represent
the floor, not the ceiling, of an adequate response to COVID‐19 at the Jail, with at least
369 COVID‐19 cases.” Id. at 17. The district court found the equities weighed in the
Detainee Class’s favor.
Based on these findings, the district court therefore ordered Applicants to
implement certain measures and protocols to bring the Jail into compliance with the
CDC Guidelines, and to better ensure the health and safety of the detainees it houses.
Id. at 20–21. For example, the preliminary injunction requires Applicants to “provide
adequate spacing of six feet or more between incarcerated people”; to “ensure that all
7

incarcerated people have access to hand sanitizer containing at least 60% alcohol”; and
to conduct daily health assessments of incarcerated people “to identify potential
COVID-19 infections.” Id. The preliminary injunction also requires Jail staff to wear
protective equipment and wash their hands, use hand sanitizer, or change their gloves
both before and after interacting with detainees or touching common surfaces. Id. at
21. These measures implement the CDC Guidelines in a way tailored to the specific
circumstances and conditions in the Jail, as the Guidelines expressly contemplate. See
infra Part II.D. The district court denied, however, a request to release all medically
vulnerable and disabled individuals, finding that the Detainee Class had not “met their
burden to prove that the balance of equities tilts in favor” of that relief. Id. at 20.
3. Applicants then filed an ex parte application to stay the preliminary injunction
pending appeal.

The district court denied a stay on June 2, 2020, holding that

Applicants had not demonstrated they were likely to succeed on appeal, and had
submitted no evidence of irreparable injury from the injunction. ECF No. 72. The
district court noted that the preliminary injunction order did not require Applicants to
implement anything beyond what was requested in the complaint—which Applicants
argued they had already implemented prior to the preliminary injunction motion. See
ECF No. 44-1 at 9. The district court explained that Applicants “cannot claim to have
already implemented the requested mitigation measures and also claim that
implementation will cause irreparable injury.” ECF No. 72 at 2.
Applicants then filed an appeal in the Ninth Circuit and moved for both an
Emergency Stay of Injunction and a Stay of Injunction Pending Appeal. The Ninth
Circuit denied both motions. In denying the motion for a stay of injunction pending
8

appeal, the Ninth Circuit held that Applicants “failed to carry their burden of
establishing that a stay of the preliminary injunction is appropriate.” 9th Cir. Appeal
No. 20-55568, Dkt. No. 19-1 at 11.
In reaching this conclusion, the Ninth Circuit underscored that “a showing of
irreparable injury is an absolute prerequisite” when seeking a stay of injunctive relief,
id. at 6, and found that Applicants failed to demonstrate irreparable harm caused by
the injunction when they had previously represented to the district court that they
were willingly complying with the requirements of the injunction. See id. at 7.
Although the Ninth Circuit explained that “the absence of irreparable harm is
alone sufficient reason to deny” Applicants’ motion for a stay, id. at 8, it further
concluded that Applicants were not likely to demonstrate that the district court abused
its discretion in issuing the injunction, id. at 9. The appeals court explained that the
district court’s factual findings are reviewed for clear error, and the facts “portrayed a
response that fell well short of the CDC guidelines and resulted in an explosion of
COVID-19 cases in the jail.” Id. The court of appeals ordered a remand, however, “for
the limited purpose of allowing the district court to consider whether changed
circumstances justify modifying or dissolving the injunction.” Id. at 1; see id. at 11–12.
Judge Nelson dissented, concluding that the district court misapplied the law and
clearly erred in assessing the facts, which in his view showed that the Applicants had
taken protective measures that had sufficiently reduced the infection rate within the
Jail. 9th Cir. Appeal No. 20-55568, Dkt No. 19-2 at 1.
4. On remand, the Detainee Class moved for expedited discovery because
Applicants repeatedly refused to provide information on their compliance with the
9

preliminary injunction. ECF No. 83. One day after the Detainee Class moved for
expedited discovery, Applicants filed an ex parte application requesting that the
district court immediately dissolve the preliminary injunction. ECF No. 86.
The district court granted the motion for expedited discovery and denied
Applicants’ motion. ECF No. 93 at 3. The district court explained that before it could
consider whether circumstances had changed to warrant dissolution of the injunction,
the Detainee Class must have the opportunity to evaluate Applicants’ evidence. Id. at
2. “Because it would serve both parties’ interests to quickly determine the actual state
of the outbreak,” the district court reasoned, “there is good cause for ordering expedited
discovery.”

Id. at 2.

The district court further noted the oddity of Applicants

requesting to dissolve the preliminary injunction even as they (1) “insist[] that they
are going above and beyond what is necessary to stop the spread of infection—including
implementing all the measures that the court ordered with the injunction,” and (2)
“refuse to provide the [Detainee Class] with any information regarding their
compliance with the” preliminary injunction. Id. at 3.
Applicants filed a second appeal with the Ninth Circuit, Appeal No. 20-55668,
and filed an emergency motion for a stay of the preliminary injunction in light of the
evidence of changed circumstances they presented in support of their application to
dissolve the injunction in the district court. 9th Cir. Appeal No. 20-55668, Dkt. No. 21. The Ninth Circuit denied the motion on July 3, 2020. The Ninth Circuit agreed
with the district court that the one-sided evidence of changed circumstances proffered
by Applicants did not compel dissolving the injunction immediately, without further
discovery. The Ninth Circuit explained that its prior order “explicitly contemplated
10

that the district court would receive evidentiary submissions from both sides in
evaluating whether current circumstances warrant modification of the preliminary
injunction.” 9th Cir. Appeal No. 20-55668, Dkt. No. 4 at 3 (emphasis in original). The
district court’s order of expedited discovery was consistent with the remand and
“necessary only because Defendants had refused to respond voluntarily to Plaintiffs’
discovery requests regarding the current conditions in the jail.” Id. Moreover, it was
“particularly appropriate” for the district court to allow the Detainee Class to conduct
expedited discovery before ruling on the motion to dissolve the preliminary injunction,
“given Defendants’ conflicting statements about their ability to comply with the
requirements of the injunction.” Id. Therefore, the Ninth Circuit concluded Applicants
had not demonstrated a likelihood of success in showing the district court abused its
discretion in denying the motion to dissolve the injunction as premature. Judge Nelson
again dissented, stating that the district court should have stayed the preliminary
injunction pending expedited discovery because of evidence of decreased transmission
of COVID-19 within the Jail. Id. at 4–7.
5. Meanwhile, COVID-19 has continued rapidly spreading throughout southern
California and Orange County, and the Jail is no exception. As of July 24, 2020, there
were a record high 56 symptomatic individuals in medical isolation in the Jail (21 in
the Intake Release Center and 35 in Theo Lacy Facility),3 an increase of 1400%
between June 24, 2020 and July 24, 2020, indicating exponential growth while
Applicants were supposedly bringing things under control. See infra Part III at 38–41.

The Jail houses inmates across four facilities: Theo Lacy, the Men’s Central Jail, the
Women’s Central Jail, and the Intake and Release Center. ECF No. 65 at 4.
3

11

Even these numbers are likely an underestimate of the true extent of the disease in
the Jail, because Applicants have never attempted or even claimed to test everyone,
regardless of symptoms. See, e.g., ECF No. 106 at 2 (reporting total cumulative tests
for detainees since March and current tests, both far below the cumulative and current
population numbers).

The risk of COVID-19 in the Jail includes the increased

potential of new infections from the outside community, using both staff and newlybooked detainees as vectors (especially considering the fact that staff are not required
to be tested, as Commander Balicki recently confirmed in a deposition). Failures to
take adequate precautionary measures at the Jail have allowed infected individuals to
mingle with the Jail’s general population, including in close quarters while in transit
and at court. This in turn has led to greater spread of the virus. Defs.’ 7/24/20
Compliance Report, ECF No. 111 at 2–3; Defs.’ 7/10/20 Compliance Report, ECF No.
106 at 2–3. All of these developments demonstrate the persistent likelihood of reseeding the Jail outbreak from the Orange County community, the ongoing risk of
harm, and the continued need for compliance with CDC Guidelines and the
preliminary injunction order.
ARGUMENT
The Court or a single Justice “will grant a stay pending appeal only under
extraordinary circumstances, and a district court’s conclusion that a stay is
unwarranted is entitled to considerable deference.” Ruckelshaus v. Monsanto Co., 463
U.S. 1315, 1316 (1983) (Blackmun, J., in chambers). Where, as here, the “matter is
pending before the Court of Appeals [on the merits of the preliminary injunction],” and
“the Court of Appeals denied [the applicant’s] motion for a stay,” the “applicant has an
12

especially heavy burden.” Packwood v. Senate Select Comm. on Ethics, 510 U.S. 1319,
1320 (1994) (Rehnquist, J., in chambers); see also Fargo Women’s Health Org. v.
Schafer, 507 U.S. 1013, 1014 (1993) (O’Connor, J., concurring in denial of stay
application) (“When a matter is pending before a court of appeals, it long has been the
practice of members of this Court to grant stay applications only upon the weightiest
considerations.” (citations omitted)); Heckler v. Redbud Hosp. Dist., 473 U.S. 1308,
1312 (1985) (Rehnquist, J., in chambers) (“[A] stay application to a Circuit Justice on
a matter before a court of appeals is rarely granted.” (citations omitted)).
To establish the propriety of a stay, the applicant must make a four-part
showing: (1) “a ‘reasonable probability’ that four Justices will consider the issue
sufficiently meritorious to grant certiorari”; (2) “a fair prospect that a majority of the
Court will conclude that the decision below was erroneous”; (3) “a demonstration that
irreparable harm is likely to result from the denial of a stay”; and (4) “in a close case it
may be appropriate to ‘balance the equities’—to explore the relative harms to applicant
and respondent, as well as the interests of the public at large.” Rostker v. Goldberg,
448 U.S. 1306, 1308 (1980) (Brennan, J., in chambers).
Applicants do not even cite or address the appropriate standard, nor do they
acknowledge the heavy burden they bear. They fail to satisfy any of the requirements
for a stay.
I. The Court Is Unlikely to Grant Certiorari.
A “reasonable probability” that certiorari will be granted is a “threshold
consideration” that is “consistently required” for the issuance of a stay. Graves v.
Barnes, 405 U.S. 1201, 1203 (1972) (Powell, J., in chambers). Yet Applicants do not
13

even mention this requirement, much less satisfy it. For a host of reasons, the Court
is unlikely to grant certiorari. There is no split in the circuits, and this case does not
present an “important federal question” that calls for Supreme Court review. Sup. Ct.
R. 10(a). The decision below did nothing more than apply well-established precedent
to the particular facts and circumstances of this case. The principal question at issue
here—whether Applicants were deliberately indifferent to a substantial risk of harm
presented by COVID-19—is a fundamentally fact-bound question. Indeed, as this
Court has recognized, deliberate indifference “is a question of fact subject to
demonstration in the usual ways.” Farmer v. Brennan, 511 U.S. 825, 842 (1994).
Applicants’ stay request reflects little more than their narrow disagreement
with the district court’s factual findings and amounts to a request for mere error
correction. See, e.g., Application at 7 (“The decision is erroneous both on the law and
the facts as they existed when the district court issued its injunction . . . .”); id. at 17
(“[T]he Ninth Circuit affirmed the district court’s abuse of discretion by relying on
clearly erroneous factual findings.”); id. at 19 (district court’s finding “was factually
inaccurate”). The district court’s factual findings turned on its determination that
Plaintiffs’ evidence and testimony was more credible and entitled to more weight than
Applicants’ competing evidence. See, e.g., ECF No. 65 at 14 n.10 (“To the extent that
the OCSD officer testimony submitted by Defendants conflicts with the inmate
testimony submitted by Plaintiffs, the Court finds the inmate testimony more
credible.”); see also 9th Cir. Appeal No. 20-55568, Dkt. No. 19-1 at 4 (“The district court
recognized that Plaintiffs’ evidence contradicted the declarations submitted by
Commander Balicki and other OCSD officials. It resolved this factual conflict in favor
14

of Plaintiffs, concluding that the detailed inmate declarations were more credible than
the brief and general declarations of the OCSD officers . . . .”).
This Court does not grant certiorari to review credibility determinations. See
Moore v. Illinois, 423 U.S. 938, 939 (1975) (Stewart, J., separate statement) (“[W]e
cannot from this vantage point intelligently reassess the state courts’ determination of
questions of credibility.”). Nor does it “act as a court of simple error correction.”
Overton v. Ohio, 534 U.S. 982 (2001) (Breyer, J., statement respecting denial of
certiorari). It is thus exceedingly unlikely that the Court would grant certiorari to
review the district court’s findings of fact and determinations of credibility.
A. There is no split in the Circuits.
Applicants attempt to manufacture a circuit split, but there is none. Applicants
contend that the Ninth Circuit’s decisions here conflict with the decisions of three other
circuits—the Fifth, Sixth, and Eleventh—which addressed deliberate indifference
claims based on the ongoing COVID-19 pandemic. Application at 6, 14–16. See Swain
v. Junior, 958 F.3d 1081 (11th Cir. 2020); Valentine v. Collier, 956 F.3d 797 (5th Cir.
2020); Wilson v. Williams, 961 F.3d 829 (6th Cir. 2020). According to Applicants, these
circuits each struck down injunctions that compelled officials to adopt protective
measures in detention facilities above and beyond those required by CDC Guidelines,
whereas the decisions below purportedly imposed requirements “exceeding CDC
Guidelines.” Application at 9–11. No such conflict exists—these cases all applied the
same legal standards, and merely reflect the unremarkable fact that conditions in
different jails are different, responses to the pandemic in different jails have been
different, and some deliberate indifference claims are stronger than others.
15

First, Applicants’ key premise is wrong: the district court did not impose
requirements exceeding the CDC Guidelines, and the very examples Applicants
provide comport with those Guidelines. See infra Part II.D. Indeed, the critical basis
of the district court’s decision was that Applicants were not complying with the CDC
Guidelines, and it specifically framed its injunction as “Mandating Compliance with
CDC Guidelines.” ECF No. 65 at 16, 19.
Second, although Applicants insist that these circuits stayed or vacated
preliminary injunctions “because they exceed the CDC guidelines,” Application at 10
(emphasis added), the decisions do not say that.
In Swain, for example, there is no indication that the Eleventh Circuit vacated
the district court’s injunction on the basis that it imposed requirements exceeding CDC
Guidelines, or that the court even believed that the injunction imposed requirements
in excess of those Guidelines. To the contrary, the Eleventh Circuit noted that the
CDC’s Guidelines “‘formed the basis’ of [the] requirements” imposed by the district
court. Swain, 958 F.3d at 1087; see also Swain v. Junior, 961 F.3d 1276, 1281 (11th
Cir. 2020) (“[T]he district court entered a 14-day TRO, based largely on the CDC’s
guidance for correctional facilities.” (emphasis added)). In Wilson, there is likewise no
indication that the Sixth Circuit either believed that the district court’s injunction
imposed requirements exceeding CDC Guidelines, or that doing so would be a basis for
vacatur. See generally Wilson, 961 F.3d 829. Nor could that have been the basis for
the decision, as the district court’s order only “provide[d] for mitigation efforts in line
with CDC guidelines.” Wilson v. Williams, No. 4:20-CV-00794, 2020 WL 1940882, at
*4 (N.D. Ohio Apr. 22, 2020), vacated, 961 F.3d 829 (6th Cir. 2020). And while the
16

Fifth Circuit in Valentine noted that “[s]ome of the conduct required of Defendants
under the injunction goes even further than CDC guidelines,” 956 F.3d at 801, the
court of appeals determined that officials were largely complying with CDC Guidelines,
and that their failure to take additional measures, by itself, was insufficient to
demonstrate deliberate indifference. See id. at 802. By contrast, the district court here
determined that the Jail was not complying with CDC Guidelines.
Third, the outcomes in Swain, Valentine, and Wilson rested on facts and
circumstances materially different from those present here.

At a high level of

generality, each case involved claims of deliberate indifference in responding to risks
presented by COVID-19, and in each case a court of appeals considered whether to stay
an injunction. But the similarities stop there.
In Swain and Valentine, for instance, the Eleventh and Fifth Circuits
respectively stayed the district courts’ injunctions largely for reasons not present here.
Both cases were decided, at least in part, on the basis of a failure by the Plaintiffs to
exhaust grievance procedures or prove unavailability of those procedures, as required
by the PLRA. See Valentine, 956 F.3d at 804–05; Swain, 958 F.3d at 1091-92. No such
issue is present here. 9th Cir. Appeal No. 20-55568 Dkt. No. 19-1 at 9 n.6 (“Defendants
have not challenged the district court’s finding that Plaintiffs likely satisfied the
PLRA’s exhaustion requirement.”). Both also found legal error in the lower court’s
failure to appropriately distinguish between objective and subjective indifference,
Valentine, 956 F.3d at 802; Swain, 958 F.3d at 1089, whereas the court here made
precisely that distinction. See infra Parts II.A, II.B.
Similarly, although the Wilson court ultimately vacated the district court’s
17

order, it did so only after a fact-intensive inquiry into the reasonableness of the federal
Bureau of Prison’s (“BOP”) response to COVID-19. That inquiry found that the BOP
had sufficiently implemented effective measures.

The court of appeals in Wilson

recognized that an institution’s failure to comply with its protocols may be evidence of
deliberate indifference, but found that—unlike in the present case—no such failure
was evident there. Wilson, 961 F.3d at 843; see also ECF No. 65 at 14 (“[A]lthough
Defendants may have a policy to comply with the CDC Guidelines, actual compliance
has been piecemeal and inadequate.”). Here, by contrast, the district court granted the
preliminary injunction after a searching, if preliminary, factual inquiry and then
declined to maintain its findings until the parties had the opportunity to develop the
factual record further through expedited discovery.
More importantly, however, different outcomes under different facts does not
remotely mean there is a split of authority on any question of law. Swain, Valentine,
and Wilson all applied the same legal standards to different facts and evidentiary
records in determining that the government was likely to succeed on the merits. None
asserted a rule that conflicts with the court of appeals here; applying the same
constitutional standards, each looked at the nature of the facilities in which the
plaintiffs were incarcerated, the particularities of COVID-19 spread (or lack thereof)
in each facility, the specific measures taken by each facility to protect detainee welfare,
and the particular requirements of the injunctions issued by each lower court. For
instance, although Applicants assert that the outbreaks in these cases “were far more
substantial” than the outbreak in this case, Application at 15, the actual data show
otherwise. In Swain, 163 inmates were infected with COVID-19—approximately one18

third as many as in the present case. Swain v. Junior, No. 1:20-CV-21457-KMW, 2020
WL 2078580, at *2 (S.D. Fla. Apr. 29, 2020), vacated and remanded, 961 F.3d 1276
(11th Cir. 2020). In Wilson there were even fewer cases—only 59—in a facility housing
similar numbers of individuals as the Orange County Jail. Wilson, 961 F.3d at 840.
And in Valentine, the district court appeared to have been aware of only a single
confirmed case of COVID-19 when it issued its injunction. See Valentine v. Collier,
No. 4:20-cv-1115, 2020 WL 1916883, at *9 (S.D. Tex. Apr. 20, 2020) (“[T]he Pack Unit
has already reported one confirmed case of COVID-19. . . .”). That is not a split. That
is how the system is supposed to work; lower courts applying the same legal standard
to different circumstances should reach different results.
On top of this there are myriad other fact-intensive distinctions among the cases:
the nature of the facilities (local jails like the Orange County Jail have significantly
more population turnover than prisons), the length of time over which inmates were
being infected, differences in the prevalence of COVID-19 in different communities,
and the extent to which experts found that the facility was consistently and sufficiently
implementing appropriate policies. The court of appeals in Swain, for example, found
in favor of the defendants only after a district court-commissioned expert found that
the facility’s staff “should be commended for their commitment to protect the staff and
inmates in this facility during this COVID-19 pandemic.” 958 F.3d at 1089. Likewise,
the court of appeals in Valentine stayed the district court’s injunction only after
concluding that defendants were already taking adequate protective measures,
including “many of the things that the district court [had] ordered.” 956 F.3d at 801–
02.
19

The differences extend to the prison officials’ responses. Unlike in Swain and
Valentine, the district court here determined that Applicants “undoubtedly know of the
risks posed by COVID‐19 infections” because they had “been repeatedly warned by
several organizations—including a group of Orange County Sherriff deputies—of the
dangers from COVID‐19 in the Jail.” ECF No. 65 at 17. The court further found that
Applicants “knew, by way of the CDC Guidelines, that failure to take certain
precautionary measures would result in an increase in the spread of infections.” Id. at
17–18. On this basis, the district court concluded “that Plaintiffs have established the
likelihood of subjective deliberate indifference.” Id. at 18.
Further, Applicants provided the district court with contradictory information,
while Plaintiffs have provided significant evidence of Jail staff’s failure to comply with
policies, of Applicants’ outright refusal to follow court orders, and of hazardous
conditions in which COVID-19 continues to spread rapidly inside the institution. See
infra Part I.B.; see also ECF Nos. 106, 107, 108, 111, 66-4.
Thus, to the extent the outcome in this case differs from the outcomes in Swain
and Valentine, the difference merely reflects that the district court was presented with
a different factual record and therefore made different factual findings. As discussed
above, those factual disputes do not constitute a split meriting this Court’s review.
B. This case would be an inappropriate vehicle to address any
asserted split in the Circuits.
In any event, the decision below rests not only on the Eighth and Fourteenth
Amendments, but also independently on the ADA and Section 504 of the Rehabilitation
Act. The district court certified a subclass of disabled detainees and determined that

20

their ADA and Rehabilitation Act claims are likely to succeed, and Applicants do not
even challenge the district court’s findings with respect to those claims, much less point
to any split in the circuits. ECF No. 65 at 18. All of the relief ordered by the district
court’s preliminary injunction can be sustained squarely as unchallenged relief under
disability rights laws. All of the changes ordered in the decision below are orders for
reasonable modifications and nondiscriminatory methods of administration necessary
under the ADA and Section 504 of the Rehabilitation Act to avoid disability
discrimination. These changes must be implemented throughout the Jail to address
the violations of the statutory rights of the members of the disabled subclass, who live
and move throughout the Jail. As those statutory grounds provide an independent and
unchallenged basis for the preliminary injunction, this case would be an inappropriate
vehicle to address any conflicts regarding the constitutional claims, even if such
conflicts existed. Applicants’ failure even to address the statutory bases for the
injunction is sufficient, in itself, to deny certiorari.
There are additional vehicle problems as well. This case is at a preliminary
stage and discovery remains ongoing. This Court generally prefers to review final
judgments with fully developed factual records. The interlocutory status of this case
is a particularly strong factor counseling against review in light of the factual record’s
state of flux. Indeed, in its June 26 order denying Applicants’ ex parte application to
dissolve the injunction, the district court also expedited discovery to allow Plaintiffs
the opportunity to properly evaluate Applicants’ evidence. As the court explained:
“Before the Court can conclude that the circumstances have truly changed in such a
way to warrant dissolution of the injunction, Plaintiffs must have the opportunity to
21

evaluate Defendants’ evidence and determine whether other evidence contradicts it.
Because it would serve both parties’ interests to quickly determine the actual state of
the outbreak, there is good cause for ordering expedited discovery.” ECF No. 93 at 2.
Applicants’ inconsistent litigation positions have likewise clouded the factual
record. While the preliminary injunction motion was pending, Applicants maintained,
in sworn declarations, that they had “already implemented all of the mitigation efforts
outlined in [Plaintiffs’] request for relief.” Balicki Decl., ECF No. 44-10 at 2. In their
second motion for a stay pending appeal, however, Applicants changed course and
submitted a new declaration asserting that “portions of the [injunction] require action
that the Sheriff simply cannot comply with due to safety and security concerns for jail
staff and inmates.” Am. Balicki Decl., 9th Cir. Appeal No. 20-55568, Dkt. No. 9 at 2.
As the Ninth Circuit noted, “Defendants’ new position cannot be reconciled with [their
prior] sworn statement in the district court, which represented not only that
Defendants were willing and able to implement each of the specific measures requested
by Plaintiffs (and later incorporated into the injunction), but that they had in fact
already implemented them.” 9th Cir. Appeal No. 20-55568, Dkt. No. 19-1 at 2. The
uncertainties created by Applicants’ shifting factual claims render this case a poor
vehicle for resolving the issues presented. See Taylor v. Yee, 136 S. Ct. 929, 930 (2016)
(Alito, J., concurring in the denial of certiorari) (“The convoluted history of this case
makes it a poor vehicle for reviewing the important question it presents. . . .”).

22

II. The Court Is Unlikely to Reverse the Lower Court’s Decisions.
A. The district court correctly stated and appropriately applied the
objective deliberate indifference standard.
Applicants contend that the district court abused its discretion by misstating,
mischaracterizing, or misapplying the correct legal standard for determining whether
prison officials acted with objective deliberate indifference. Application at 11–14. But
a review of the district court’s order confirms that the district court identified and
applied the correct standard. In the unlikely event this Court were to eventually grant
certiorari, there is little chance it would reverse.
To establish objective deliberate indifference, a plaintiff must prove that “the
defendant did not take reasonable available measures to abate [a substantial risk of
harm], even though a reasonable official in the circumstances would have appreciated
the high degree of risk involved.” Gordon v. Cty. of Orange, 888 F.3d 1118, 1125 (9th
Cir. 2018), cert. denied sub nom. Cty. of Orange, Cal. v. Gordon, 139 S. Ct. 794 (2019);
see also Farmer, 511 U.S. at 847 (prison official is deliberately indifferent if, among
other things, he “disregards [a substantial risk of serious harm] by failing to take
reasonable measures to abate it”); Shorter v. Baca, 895 F.3d 1176, 1190 (9th Cir. 2018).
To satisfy this element, “the defendant’s conduct must be objectively unreasonable.”
Gordon, 888 F.3d at 1125 (quoting Castro v. Cty. of Los Angeles, 833 F.3d 1060, 1071
(9th Cir. 2016)). “Thus, the plaintiff must ‘prove more than negligence but less than
subjective intent—something akin to reckless disregard.’” Id. (quoting Castro, 833
F.3d at 1071).
In its May 26 order, the district court determined that Plaintiffs had established

23

objective deliberate indifference. ECF No. 65 at 14. Specifically, the court found that
“[t]he risk of harm within the Jails is undeniably high” given the ongoing spread of
COVID-19, that Applicants had failed to “comply[] meaningfully with the CDC
Guidelines” to abate the risk of infection, and that Applicants’ “failure to comply
demonstrates deliberate indifference toward the health and safety of the inmates.” Id.
at 14–17.

Based on these findings, the court concluded that “Plaintiffs have

demonstrated a likelihood of establishing that defendants are deliberately indifferent”
to the risk of COVID-19 infection faced by Plaintiffs. Id. at 17.4
Although Applicants baldly assert that “[t]he district court employed an
‘incorrect legal standard’ to arrive at its conclusion of objective deliberate indifference,”
Application at 13, they do not contest that the district court set forth the appropriate
legal standard. Nor could they, as the district court cited and quoted the same Ninth
Circuit decisions that Applicants cite to establish the objective deliberate indifference
standard. Compare ECF No. 65 at 13–14 (citing and quoting Gordon, 888 F.3d at
1125), with Application at 12 (same).
Instead, Applicants latch onto two sentences in the order to argue that the

Applicants opine that “[i]t is unclear why the district court did not find that
voluntarily releasing 53 percent of the detained inmates was reasonable enough.” App.
at 13. Although Applicants describe this measure as “voluntary,” they neglect to
mention that a large number of these releases were pursuant to court orders under a
statewide “zero bail” order, which zeroed out bails for most minor offenses. See
JUDICIAL BRANCH OF CALIFORNIA, Judicial Council Adopts New Rules to Lower
Jail Population, Suspend Evictions and Foreclosures (Apr. 6, 2020),
https://newsroom.courts.ca.gov/news/judicial-council-adopts-new-rules-to-lower-jailpopulation-suspend-evictions-and-foreclosures; see ECF No. 44-9 at 2; see infra Part
II.C. This order has since been rescinded, contributing to the now rising population of
detainees in the Jail. See, e.g., ECF No. 110 at 3.
4

24

district court mischaracterized and misapplied the appropriate legal standard (i.e.,
whether the defendant failed to take reasonable available measures to abate a
substantial risk of harm). These sentences cannot bear the weight Applicants place
upon them.
First, in concluding that Applicants’ failure to comply with CDC Guidelines
demonstrated their deliberate indifference, the court stated: “An institution that is
aware of the CDC Guidelines and able to implement them but fails to do so
demonstrates that it is unwilling to do what it can to abate the risk of the spread of
infection.” ECF No. 65 at 17. Applicants contend that because a defendant’s subjective
beliefs about available measures is irrelevant to objective deliberate indifference, their
“aware[ness]” of the CDC Guidelines is immaterial. Application at 13. But Applicants
acknowledge that “[t]he objective deliberate indifference standard examines whether
a jail took ‘reasonable available measures to abate [the] risk.’” Id. (alteration in
original). And the district court’s order explained at length that Applicants had failed
to take reasonable available measure to abate the risk of COVID-19 infections,
including by failing to comply with CDC Guidelines.
Second, Applicants make much of the district court’s statement that “they must
fully and consistently comply [with CDC Guidelines],” ECF No. 65 at 17, contending
that “‘full and consistent’ compliance is a higher standard than required by the
Constitution, and this standard is not found in precedent.” Application at 13. Read in
context, however, the district court’s statement plainly does not treat the CDC
Guidelines as binding law; it merely reflects the commonsense notion that Applicants’
manifestly incomplete compliance with CDC Guidelines is evidence of deliberate
25

indifference. As the court explained (in text Applicants notably omit), regular and
consistent compliance with CDC Guidelines helps ensure “that the compliance is an
effective tool to abate the spread of infection.” ECF No. 65 at 17.
In

short,

Applicants

cannot

establish

that

the

Court

misstated

or

mischaracterized the relevant legal standard for establishing objective deliberate
indifference.
B. The district court correctly stated and appropriately applied the
subjective deliberate indifference standard.
Under the Eighth Amendment, an official acts with deliberate indifference when
he or she: (1) “knows that inmates face a substantial risk of serious harm,” and (2)
“disregards that risk by failing to take reasonable measures to abate it.” Farmer, 511
U.S. at 827); see also Lemire v. Cal. Dep’t of Corr. & Rehab., 726 F.3d 1062, 1078 (9th
Cir. 2013). Therefore, in addition to the objective deliberate indifference required for
a Fourteenth Amendment violation, a plaintiff must show that an official acted with
subjective deliberate indifference, i.e., that an official knew of the substantial risk of
serious harm, to establish an Eighth Amendment violation.
Applicants argue that the district court abused its discretion by applying the
incorrect legal standard for the subjective element of the Eighth Amendment claim.
First, Applicants argue that the district court erred because it “relied solely” on
evidence that the Jail “knew, by way of the CDC Guidelines, that failure to take certain
precautionary measures would result in an increase in the spread of infections.”
Application at 16. This is not true. The district court also relied on the fact that
Defendant Barnes received “repeated[] warn[ings] by several organizations—including

26

a group of Orange County Sherriff deputies—of the dangers from COVID-19 in the
Jail.” ECF No. 65 at 17.
Second, Applicants argue that the district court erred by failing to explicitly
analyze whether Applicants “consciously ‘disregarded’” their knowledge that failure to
take certain precautionary measures would increase the spread of COVID-19
infections. Application at 15–17. However, Applicants mischaracterize the proper
legal analysis, which does not require courts to separately analyze whether an official
“consciously disregarded” a risk. This Court has made clear that to violate the Eighth
Amendment, “it is enough that the official acted or failed to act despite his knowledge
of a substantial risk of serious harm.” Farmer, 511 U.S. at 842.
Here, the district court applied the proper legal standard to conclude that the
Detainee Class showed a likelihood of success on their claim that Applicants acted with
deliberate indifference in violation of the Eighth Amendment.

The district court

correctly reasoned that Applicants “undoubtedly kn[e]w of the risks posed by COVID19 infections,” as they received repeated warnings about the risk and guidance from
the CDC about the spread of infections. ECF No. 65 at 17. The district court also
correctly concluded that Applicants’ failure to meaningfully comply with the CDC
Guidelines demonstrated a failure to take reasonable measures to abate the
substantial risk of serious harm posed by the COVID-19 pandemic. See id. at 16–18.
Therefore, the district court properly applied the standard for subjective deliberate
indifference by considering: (1) whether Applicants knew that inmates faced a
substantial risk of serious harm, and (2) whether Applicants failed to take reasonable
measures to abate that risk. See Farmer, 511 U.S. at 847.
27

C. The district court correctly found that the Jail officials were
aware that COVID-19 presented a substantial risk of serious
harm to the Detainee Class.
Applicants also argue that the district court abused its discretion by relying on
clearly erroneous factual findings. This contention has no merit. A district court’s
“[f]indings of fact, whether based on oral or other evidence, must not be set aside unless
clearly erroneous, and the reviewing court must give due regard to the trial court’s
opportunity to judge the witnesses’ credibility.”

Fed. R. Civ. Proc. 52(a)(6).

In

“applying [this] standard to the findings of a district court sitting without a jury,
appellate courts must constantly have in mind that their function is not to decide
factual issues de novo.” Anderson v. Bessemer City, 470 U.S. 564, 573 (1985) (citation
omitted). As long as “the district court’s account of the evidence is plausible in light of
the record viewed in its entirety, the court of appeals may not reverse it even though
convinced that had it been sitting as the trier of fact, it would have weighed the
evidence differently.” Id. at 573–74. Applicants’ mere assertions are not enough to
show that the district court made any errors, let alone clear errors.
In the preliminary injunction order, the district court considered evidence of
COVID-19 testing results in the Jail from April 22 to May 26, 2020. ECF No. 65 at 16.
This data revealed a consistent increase in the total number of positive COVID-19 tests
in the Jail, which the district court accurately described as a “soaring number of
confirmed cases.” Id. As of the date that the district court entered the preliminary
injunction, there were 369 confirmed COVID-19 cases in the Jail. Id. at 15.
Applicants do not dispute the underlying data that the district court relied on,
which showed that the total number of confirmed cases consistently increased in the
28

weeks leading up to the preliminary injunction order. Instead, Applicants just quibble
with how the district court described the data. Applicants contend that the district
court’s finding that the number of confirmed cases was “soaring” at the time of the
preliminary injunction is clearly erroneous because the district court should have
weighed the facts about the number of infections differently. Application at 17–19.
This cannot be clear error. See Anderson, 470 U.S. at 573–74.
Applicants suggest that rather than considering the increase in the total number
of confirmed cases in the Jail, the district court should have focused on evidence that
the number of new infections increased at a slower rate in the weeks immediately
preceding the district court’s preliminary injunction order. Application at 18 (“A more
accurate and precise approach to calculating this rate would be to compare each week’s
rate of new infections to the previous week’s rate.”). Yet that does not change the fact
that just a few weeks earlier the Jail was indeed in the midst of an alarming and rapid
climb in cases, and the total number of infections still continued to increase. See ECF
No. 65 at 16. The district court found that the available data showed that COVID-19
cases were “soaring,” and that the increase in positive test results was not merely due
to an increase in testing. The court compared the total number of confirmed cases to
the total number of recovered cases to conclude that there were “57 inmates who likely
contracted the virus within the past two weeks.” Id. at 15. Given that the total number
of infections continued rising in the weeks leading to the preliminary injunction order,
the district court’s finding that cases were “skyrocketing” was well-grounded in the
evidence in the record – it was obviously not clear error, even if Applicants believe some
other approach might have been more “precise.”
29

Moreover, Applicants concede that the rate of new infections (their preferred
focus) did continue to increase from April 22 to May 8—just two-and-a-half weeks
before the district court entered the preliminary injunction. See Application at 18.
Even though the rate of new positive COVID-19 tests temporarily slowed in the days
immediately preceding the injunction, it was not clear error for the district court to
view the recent trend of increasing infection rates as cause for concern, particularly
when the number of total infections was continuing to increase at the time. Again,
Applicants’ disagreement with how the district court weighed the COVID-19 testing
results does not amount to clear error.
Applicants next suggest that the fact that the Sheriff voluntarily released a
large percentage of the jail population “vitiates the [district court’s] factual finding that
the jail was subjectively deliberately indifferent to the risk of harm to the inmates.”
Application at 20. However, the fact that the Jail released some number of inmates
does not render the district court’s factual findings clearly erroneous. The record is
replete with evidence demonstrating that Applicants were aware of a serious risk of
substantial harm to the inmates that remained within the Jail at the time the district
court entered the preliminary injunction.

The district court acknowledged that

“Defendants have reduced the Jail’s population.” ECF No. 65 at 5. Yet the district
court concluded that Applicants were aware that the 2,826 individuals who remained
in the Jail at the time were exposed to a serious risk of substantial harm from COVID19.5

The district court found that despite the releases, Applicants were not

The number of detainees in the Jail has risen since the district court entered the
preliminary injunction. The Jail population was 3,310 as of July 24, 2020. Defs.’
5

30

maintaining social distancing measures.

Id. at 6.

The district court credited

declarations that inmates with known exposure were not quarantined, and the Jail
allowed symptomatic individuals to mingle in common areas with asymptomatic
individuals. Id. at 5–6. The court also credited testimony that inmates did not “receive
sufficient cleaning supplies to keep their living areas clean and disinfected.” Id. at 6.
Given this evidence, the court did not err in concluding the confinement
conditions posed a serious risk of harm to inmates, because “[w]hen Defendants fail to
quarantine symptomatic individuals or provide sufficient cleaning supplies, all
inmates are at risk.” Id. at 15. The district court also concluded that Applicants were
aware of that risk because they received repeated warnings about the dangers of
COVID-19 in the Jail, and the CDC Guidelines informed them that “failure to take
certain precautionary measures would result in an increase in the spread of infections.”
Id. at 17–18. The record clearly supports the district court’s finding that Applicants
acted with subjective deliberate indifference because their failure to take
precautionary measures exposed the inmates to serious risk of substantial harm, and
Applicants were aware of that risk.
Applicants further contend that the district court “refused to consider” their
evidence that infection rates dropped from June 3 to June 10, 2020, when it denied
their application to dissolve the preliminary injunction. Application at 18–19. This is
false. The district court did not refuse to consider Applicants’ evidence—it just refused
to treat Applicants’ unilateral assertions of the facts as dispositive. Instead the district

7/24/20 Compliance Report, ECF No. 111 at 3.
31

court properly granted a motion for expedited discovery to “determine the actual state
of the outbreak” and to give Respondents an opportunity to evaluate Applicants’
evidence. ECF No. 93 at 2. Moreover, the district court explained that “[e]ven if
Defendants have dropped the transmission rate to zero, it is certainly not time yet to
draw down preventative measures—unless Defendants consistently implement those
steps outlined in the injunctive order, a second spike is likely to occur.” Id. The district
court was sadly prescient; a second spike is currently occurring. See Defs.’ 7/24/2020
Compliance Report, ECF No. 111; infra Part III.
This Court is especially unlikely to reverse the district court’s factual findings
given the preliminary nature of this case. Aside from the fact that the district court’s
factual findings are not clearly erroneous, it is far from likely that this Court would
review the factual findings in their current form, because the factual findings will be
updated to reflect ever-evolving developments regarding the spread and risk of COVID19. Indeed, discovery is currently ongoing to provide additional evidence of changed
circumstances. ECF No. 93. Applicants’ arguments regarding the evolving facts since
the district court granted the preliminary injunction are premature. The district court
must be given the opportunity to evaluate these facts along with the information that
discovery will provide regarding whether officials have been complying with
preventative measures ordered in the preliminary injunction. The fact-specific nature
of Applicants’ arguments and the preliminary posture of this case reinforce that an
emergency stay is inappropriate.
Moreover, the Court is unlikely to reverse the district court’s factual findings
because they were based on credibility determinations. The district court examined
32

the parties’ evidence and testimony, including assessing the credibility of witnesses.
The Detainee Class submitted 43 declarations from inmates in the Jail, describing the
conditions in the Jail during the initial spread of COVID-19. Applicants submitted
declarations from officers regarding the precautionary measures they had taken to
prevent the spread of the virus. The district court found that to the extent the officer
testimony submitted by Applicants conflicts with the inmate testimony submitted by
Plaintiffs, “the Court finds the inmate testimony more credible.” ECF No. 65 at 14
n.10. The court explained that the officer testimony is “general, brief, and only broadly
describes the Jail’s policies,” whereas the inmate testimony “describes repeatedly and
in exacting detail Defendants’ failures to implement the CDC Guidelines.”

Id.

Moreover, the court noted that the inmates submitted “dozens” of corroborating
declarations, while only three officers submitted declarations.6

Id.

The court

concluded that Applicants submitted “no persuasive evidence contradicting the
accounts of the inmates.” Id. at 15. Applicants have not challenged the district court’s
credibility determinations, and rightly so. The record amply supports the district
court’s credibility determinations and factual findings. See Anderson, 470 U.S. at 574–
75.
D. The district court did not abuse its discretion in setting the
scope of its preliminary injunction.
Applicants frame the question presented as whether the district court “erred in
issuing an injunction . . . that exceeds the scope of the CDC Guidelines.” Application

Additionally, those declarations that Applicants submitted were vague and relied
heavily on second-hand information and assumptions, as recently confirmed in
depositions of these officers.
6

33

at ii; see also id. at 15. And this supposed error also forms the basis of their claimed
circuit split. See Application at 9; but see supra Part I.A. Yet Applicants make no
argument as to why to the district court committed any legal error in setting the scope
of its injunction.
Applicants’ premise is wrong: the preliminary injunction generally tracks the
Guidelines, applying them to the particular circumstances of the Jail. For example,
the Guidelines state that “ideally” inmates should be provided with six feet of space,
see CENTERS

FOR

DISEASE CONTROL

AND

PREVENTION, Interim Guidance on

Management of Coronavirus Disease 2019 (COVID-19) in Correctional and Detention
Facilities,

https://www.cdc.gov/coronavirus/2019-ncov/community/correction-

detention/guidance-correctional-detention.html (last accessed July 29, 2020) (“CDC
Interim Guidance”), and the district court determined that this Guideline was
appropriate in the circumstances of the Jail and adopted it as a requirement.7 ECF No.
65 at 20; see Application at 11 (identifying this as a part of the injunction purportedly
exceeding the Guidelines). The Guidelines expressly contemplate that they “may need
to be adapted based on individual facilities’ physical space, staffing, population,
operations, and other resources and conditions,” and state that individual facilities

Similarly, Applicants’ contention that the district court’s order exceeds the CDC
Guidelines because the order requires Petitioners to take the temperature of all class
members daily mischaracterizes the CDC Guidelines. See Application at 10. The CDC
Guidelines suggest that “[i]f individuals with COVID-19 have been identified among
staff or incarcerated/detained persons anywhere in a facility,” the facility should
“consider implementing regular symptom screening and temperature checks in
housing units that have not yet identified infections, until no additional infections have
been identified in the facility for 14 days.” See CDC Interim Guidance (emphasis in
original).
7

34

“should adapt these guiding principles to the specific needs of their facility.” See CDC
Interim Guidance. The district court did just that.
Even if the injunction could fairly be viewed as exceeding the CDC Guidelines
in some respects, the district court committed no error.

“Crafting a preliminary

injunction is an exercise of discretion and judgment, often dependent as much on the
equities of a given case as the substance of the legal issues it presents.” Trump v. Int’l
Refugee Assistance Project, 137 S. Ct. 2080, 2087 (2017) (per curiam). Having found a
likelihood of success on the merits of Plaintiffs’ claims, the district court acted well
within its discretion in fashioning relief. That relief was based on Applicants’ failure
to take appropriate measures—including its failure to comply with the CDC
Guidelines, ECF No. 65 at 16—together with the troubling rise in COVID-19 cases at
the Jail. As the district court found, the CDC Guidelines were not intended as the
“floor” of an adequate response in a jail “with at least 369 COVID-19 cases,” since “[a]s
the rate of infection rises, so must the required response.” ECF No. 65 at 17. Applicants
do not explain what was erroneous about that finding, much less how it could have
constituted a reversible abuse of the district court’s equitable discretion.
III. Applicants Have Not Demonstrated that Denial of a Stay Will Cause
Irreparable Harm, Yet Granting a Stay Would Significantly Harm the
Detainee Class.
When Applicants first opposed Plaintiffs’ motion for a preliminary injunction,
they argued that the motion was unnecessary because Applicants had “already
implemented all of the mitigation efforts outlined in plaintiffs’ request for relief.”
Balicki Decl. ECF No. 44-10 at 2. Applicants changed their position after the motion
was granted. They argued in their requests to the district court and Ninth Circuit for
35

a stay pending appeal of the preliminary injunction that compliance was either
impossible or unsafe. See 9th Cir. Appeal No. 20-55568, Dkt. No. 8-1 at 1; 9th Cir.
Appeal No. 20-55568, Dkt. No. 14 at 6. As the Ninth Circuit observed in denying
Applicants’ request, “[a]n injunction cannot cause irreparable harm when it requires a
party to do nothing more than what it maintained, under oath, it was already doing of
its own volition.” See 9th Cir. Appeal No. 20-55568, Dkt. No. 19-1 at 7. Applicants
previously represented “not only that [they] were willing and able to implement each
of the specific measures requested by [the Detainee Class] (and later incorporated into
the injunction), but that they had in fact already implemented them.”

Id. at 6

(emphasis in original).
The Application never addresses, much less refutes, this fact, which the Ninth
Circuit considered dispositive in denying a stay. 9th Cir. Appeal No. 20-55568, Dkt.
No. 19-1 at 8.

Nor could Applicants contest it.

Even in their stay application,

Applicants assert that they have “(1) largely implemented to the extent possible CDC
Guidelines across the board, (2) released half of the inmate population to provide social
distancing, (3) radically increased cleaning and hygiene, (4) provided staff and inmates
with personal protective equipment (‘PPE’), and (5) essentially eliminated COVID
within the jail population with the exception of new detainees.” Application at 2–3.
Applicants’ failure to engage with their own sworn evidence that the injunction poses
no harm to them is reason enough to deny the Application.
Unable to respond to the Ninth Circuit’s chief reason for denying a stay or even
to articulate any concrete harm from the injunction, Applicants simply make generic
legal arguments. For the first time, Applicants argue without support that they have
36

“demonstrated likelihood of irreparable harm in the form of judicial micromanagement
of state executive branch jail affairs and resources, especially where they have proven
demonstrably successful.” Application at 7. Putting aside the troubling suggestion
that the current circumstances at the Jail represent “demonstrable success,” this is
just an abstract claim of legal harm—Applicants provide no factual or legal support to
establish how administration of the Jail will actually be harmed, let alone irreparably.
Applicants claim that they will have to spend public resources because of the injunction
(which again is curious when they previously stated that they were already complying
with the terms of the injunction), but they also have not presented any evidence, for
instance, that the injunction would lead to undue costs or other harms. Application at
24. Even assuming that “judicial micromanagement” is a cognizable harm rather than
just a claimed legal error, Applicants have not explained how such a harm is
irreparable and could not be addressed through the normal course of appeal. They do
not engage with the uniqueness and urgency of this pandemic, and the fact that any
judicial supervision would hopefully not need to be prolonged if and when proper action
is taken and the pandemic subsides.
Applicants’ inability to state or substantiate any irreparable harm has been
constant throughout this litigation, pointing to one conclusion: they cannot articulate
any concrete harm from the injunction, but simply object to the concept of operating
under a court order. That is not a substantiated claim of irreparable harm capable of
warranting extraordinary relief.

The district court therefore did not abuse its

discretion by ordering expedited discovery to explore the factual basis for Applicants’
new, contradictory position that the Sheriff cannot comply with the social distancing
37

requirements and other components of the preliminary injunction order, see 9th Cir.
Appeal No. 20-55668, Dkt. No. 2-1 at viii–x, rather than granting an immediate
dissolution of the preliminary injunction based on these new, untested factual
assertions.

See Ruckelshaus, 463 U.S. at 1317 (Blackmun, J., in chambers) (“An

applicant’s likelihood of success on the merits need not be considered . . . if the
applicant fails to show irreparable injury from the denial of the stay.”); Leiva-Perez v.
Holder, 640 F.3d 962, 965 (9th Cir. 2011) (without adequate proof of irreparable harm,
“a stay may not issue, regardless of the [applicants’] proof regarding the other stay
factors.”).
Nor did the district court abuse its discretion in determining that the risk of
harm to the Detainee Class remains grave. COVID-19 can cause permanent damage,
regardless of whether the infected individual has recovered. And it is estimated that
1–2% of those who are infected by the virus could die. Parker Decl., ECF No. 79-10, at
¶ 27. As the district court has noted, “[b]ecause the virus is contagious . . . the
uninfected inmates are likely to contract the disease if they remain in the Jail. And
the 488 medically vulnerable inmates are likely to get very sick and possibly die.” ECF
No. 65 at 14.
Contrary to Applicants’ representations, the situation has worsened, not
improved.

As Applicants themselves acknowledge, “COVID-19 is not quickly

departing as a pressing health concern,” and there are “significant and dangerous
outbreaks in some custodial institutions in this country.”

Application at 2–3.

Applicants maintain that the Jail is “not one of them,” and that the health crisis
in its facilities was either not that bad, or that it has since improved. These
38

arguments are best presented to the district court, which has been carefully
monitoring the developments on the ground.
More fundamentally, though, Applicants’ representations are not credible.
These representations are belied by Applicants’ own records indicating a surge of
cases when the district court granted the preliminary injunction on May 24, 2020,
and an ongoing rapidly rising number of COVID-19 cases since June 24, 2020.
These are new cases, not accumulated old ones as Applicants imply. Application at 17–
18.

Although the Applicants filed their stay application on July 21, 2020, they

conveniently referred to statistics only up until June 24, 2020, when there were
reportedly four active COVID-19 cases from new arrestees. Applicants neglected to
mention that since June 24, 2020, their own records indicate that the number of active
cases has increased dramatically. Applicants represented to this Court that “there is
currently zero transmission of COVID at the Orange County jails,” Application at 5,
while concurrently submitting a status report to the district court identifying 40
confirmed positive tests as of July 24, including 15 likely arising from intra-jail
transmission from a COVID-19-positive inmate housed in the general population at
Theo Lacy Facility. Defs.’ 7/24/20 Compliance Report, ECF No. 111 at 2–3. It is
remarkable that just days before releasing this information, Applicants would falsely
boast to this Court that they had “reduced intra-jail transmission to zero.” Application
at ii.
The Sheriff’s Department’s reports separately indicate that as of July 24, 2020,
there were a record high 56 active cases reported as “Medical Isolation (Symptomatic),”

39

an increase of 1400% between June 24, 2020 and July 24, 2020.8 There are now more
of these cases than at the time of issuance of the injunction; in fact, over the past week,
there have been more such cases than at any point since the Sheriff’s Department
began reporting the number of active cases on May 5, 2020, as shown in Figure 1.
Figure 1
Daily Number of Active COVID-19 Cases
(Positive Inmates with Symptoms)
60
50
40
30
20
10
0

These facts, which should be addressed in the first instance by the district court
with the aid of additional discovery, confirm that Applicants do not face any irreparable
harm by complying with the preliminary injunction, and that any irreparable harm
would be to the inmates who could potentially become ill or die as a result of COVID-

The Orange County Sheriff’s Department appears to publish a daily count of active,
pending, and recovered cases of COVID-19 in Orange County Jails. The daily count is
accessible at the URL https://www.ocsd.org/documents/sheriff/COVIDStats[date].pdf
where [date] refers to a particular date in the following format: 7.24.20 for July 24,
2020. For example, the daily count for July 24, 2020 is accessible at the URL
https://www.ocsd.org/documents/sheriff/COVIDStats7.24.20.pdf. There is a daily count
available for most, but not all, days beginning April 22, 2020, until July 29, 2020.
Respondents were able to access 63 daily counts from April 22, 2020 to July 29, 2020
to compile these statistics.
8

40

19 transmission in the Jail. Applicants’ continued attempts to thwart a preliminary
injunction issued to prevent just such transmissions should be rejected, and Applicants
should focus on taking measures to prevent the worsening proliferation of COVID-19
cases in the Jail.
IV. The Balance of Hardships and Public Interest Favor Denial of a Stay.
As the district court explained in issuing the preliminary injunction order,
“[t]he balance of equities and public interest tilt heavily [in] [the Detainee Class’s]
favor” with regard to the relief the court provided. ECF No. 65 at 19. Requiring
Applicants to comply with the preliminary injunction order while proceeding with
targeted expedited discovery to determine what infection control measures
Applicants may be implementing is likewise in the public interest.
COVID-19 cases are currently spiking in Orange County.
additional pressures on the Jail.

This puts

Assuming Applicants’ “new” information is

substantiated, at least four cases of COVID-19 have entered the Jail from the
community within the last few weeks, and the records show 56 active cases as of
July 24, 2020. 9th Cir. Appeal No. 20-55668, Dkt. No. 2-1 at vi–vii. As cases rise
in the outside community, stress will increase on already-taxed hospitals. Parker
Decl., ECF No. 79-10, at ¶ 28. A fresh eruption of cases in the Jail would only
exacerbate that strain. Id. at ¶ 30. Further, as community spread increases, so do
the chances that Jail staff and newly-incarcerated individuals will bring the virus
with them into the Jail. Id. at ¶ 31. A vicious cycle of infectious spread between
the Jail and the outside community is a real and frightening possibility. Id. at ¶
18.
41

Congregate environments, especially carceral settings, are highly prone to
outbreaks of disease. Applicants do not dispute that the Jail itself played host to
a major COVID-19 outbreak in which hundreds of incarcerated individuals were
infected. It is impossible to tell how much long-term damage this has done to those
individuals’ health, nor is it possible to know the extent to which the cases in the
Jail contributed to broader community spread.
Given the clear harm caused by the first wave of COVID-19 infections in the
Jail and the current increase, a stay would expose the public and the Jail’s
residents to immense risk. Applicants claim that, due to their vigilance, the first
wave of COVID-19 in the Jail has ebbed. Even if the rate of infections were
decreasing, an assertion contradicted by Applicants’ own records, the district court
correctly found that staying the preliminary injunction without offering the
Detainee Class and the court a meaningful opportunity to evaluate Applicants’ new
representations would be ill-advised. The grave threat to the health and safety of
detainees in the Orange County Jail vastly outweighs the abstract objections to
“judicial micromanagement” Applicants have mustered.

This Court should deny

the application for a stay and allow the district court to proceed with determining
the facts on the ground to prevent further illness and deaths. The first wave of
cases in the Jail was a tragedy. The second wave is unconscionable, and granting
Applicants’ stay application would make it worse.
CONCLUSION
For all these reasons, the Court should deny the application for a stay of
injunctive relief pending appeal.
42

July 30, 2020

Respectfully submitted,

______________________
David M. Zionts
Counsel of Record
Stacey K. Grigsby
Amia Trigg
Steven Winkelman
Eric Chung
Laura E. Dolbow
COVINGTON & BURLING LLP
One CityCenter
850 Tenth St., NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com

Cassandra Stubbs
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
201 W. Main St., Suite 402
Durham, NC 27701
(919) 682-5659
David Cole
Somil Trivedi
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th St., NW
Washington, DC 20012
(202) 549-2611
Paul Hoffman
UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL OF
LAW CIVIL RIGHTS LITIGATION CLINIC
401 E. Peltason Dr.,
Suite 1000, Irvine, CA 92687
(949) 824-0066

Mitchell Kamin
Aaron Lewis
COVINGTON & BURLING LLP
1999 Avenue of the Stars
Los Angeles, CA 90067-4643
(424) 332-4800
Peter Eliasberg
AMERICAN CIVIL LIBERTIES FUND OF
SOUTHERN CALIFORNIA
1313 W 8th St.
Los Angeles, CA 90017
(213) 977-9500

Zoe Brennan-Krohn
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
Disability Rights Program
39 Drumm St.
San Francisco, CA 94111
(415) 343-0769

John Washington
SCHONBRUN, SEPLOW, HARRIS,
HOFFMAN & ZELDES LLP
11543 W. Olympic Blvd.
Los Angeles, CA 90064
(310) 399-7040

Carl Takei
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad St., 18th Floor
New York, NY 10004

Counsel for Respondents
43

